HHS/OIG-Audit--" Audit of the National Institutes of Health's Use of Heart Surgery Contracts with Private Hospitals," (A-15-94-00022)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the National Institutes of Health's Use of Heart Surgery Contracts
with Private Hospitals," (A-15-94-00022)
February 5, 1996
Complete Text of Report is available in PDF format
(2 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report addresses the National Institutes of Health's (NIH)
use of contracts to obtain routine cardiac surgery. The objective of our audit
was to determine how the NIH's National Heart, Lung, and Blood Institute (Heart
Institute) used surgery contracts in support of its research mission.